     Memorandum from the Office of the Inspector General



     July 14, 2011

     Kimberly S. Greene, WT 7B-K

     REQUEST FOR FINAL ACTION – AUDIT 2009-12595 – DISTRIBUTOR AUDIT OF THE
     CITY OF OAK RIDGE



     Attached is the subject final report for your review and action. Your written comments,
     which addressed your management decision and actions planned or taken, have been
     included in the report. Please notify us when final action is complete.

     Information contained in this report may be subject to public disclosure. Please advise us
     of any sensitive information in this report that you recommend be withheld.

     If you have any questions, or wish to discuss our findings, please contact me or Richard C.
     Underwood, Acting Director, Distributor Audits, at (423) 785-4824. We appreciate the
     courtesy and cooperation received from your staff during the audit.




(for) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

     ALW:HAC
     Attachment
     cc (Attachment):
           Steve Byone, WT 4B-K
           Michael B. Fussell, WT 9B-K
           Peyton T. Hairston, Jr., WT 7B-K
           Tom Kilgore, WT 7B-K
           Richard W. Moore, ET 4C-K
           Robert A. Morris, WT 7C-K
           Emily J. Reynolds, OCP 1L-NST
           John M. Thomas III, MR 6D-C
           John G. Trawick, WT 3D-K
           Robert B. Wells, WT 9B-K
           OIG File No. 2009-12595
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                            

 

 

 

 

 
DISTRIBUTOR AUDIT OF
 

THE CITY OF OAK
 



RIDGE
 




 




 

 
 
 

 
Audit Team                                 Audit 2009-12595
Andrea L. Williams                             July 14, 2011
Jennifer R. Torregiano
Office of the Inspector General                                   Audit Report




ACRONYMS AND ABBREVIATIONS
DAR                        Distributor Annual Report
FERC                       Federal Energy Regulatory Commission
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hours
MW                         Megawatt
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority
USofA                      Uniform System of Accounts




Audit 2009-12595
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   EXPENDITURES OF ELECTRIC SYSTEM REVENUES
   DID NOT COMPLY WITH CONTRACT ........................................................... 2

   FINANCIAL REPORTING DID NOT COMPLY WITH CONTRACT .................. 6

   IMPROPER REPORTING OF ELECTRIC SALES AND/OR
   POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS................................................................................................... 8

   OTHER ISSUES ............................................................................................. 11

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 13

RECOMMENDATIONS ................................................................................ 13


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JUNE 21, 2011, FROM MARK S. WATSON TO ROBERT E.
   MARTIN

C. MEMORANDUM DATED JULY 1, 2011, FROM KIMBERLY S. GREENE TO
   ROBERT E. MARTIN




Audit 2009-12595
                     Audit 2009-12595 – Distributor Audit of the
                                 City of Oak Ridge
                                   EXECUTIVE SUMMARY

Why the OIG Did This Audit

  As part of our annual audit plan, the OIG (Office of the Inspector General) audited the
  electric system of the city of Oak Ridge, Tennessee, for compliance with the power
  contract with the Tennessee Valley Authority (TVA) for the audit period July 2007 through
  June 2009. Key contract provisions included (1) proper reporting of electric sales,
  (2) nondiscrimination in providing power, and (3) use of electric revenue for approved
  purposes. For fiscal year (FY) 2009, Oak Ridge provided power to approximately 16,000
  customers that resulted in electric sales revenue of approximately $52 million. The Oak
  Ridge electric system is operated as part of the city municipal government rather than as a
  separate entity.

What the OIG Found

  Substantial improvements are necessary for Oak Ridge to comply with certain power
  contract provisions pertaining to:

   Electric System Revenues – Although funds were disbursed for electric system
    purposes, Oak Ridge did not make expenditures in the proper order required by
    Section 6 of the power contract. Specifically, Oak Ridge (1) had not paid $1,581,486 of
    electric operating obligations incurred, (2) made payments in lieu of taxes of $3,089,000
    during the audit period before (a) all operating obligations were paid and (b) reasonable
    reserves were in place, and (3) did not have reasonable reserves prior to making
    payments in lieu of taxes. At June 30, 2009, Oak Ridge had a 0.89 percent cash ratio
    before considering planned FY 2010 capital expenditures and a negative 3.6 percent
    cash ratio after considering planned FY 2010 capital expenditures.
   Financial Reporting – Oak Ridge (1) did not use the Federal Energy Regulatory
    Commission Uniform System of Accounts, (2) incorrectly reported items to TVA in the
    Distributor Annual Report (DAR), and (3) incorrectly accounted for payable(s) to the city
    general fund.

  Improvements should also be implemented pertaining to:

   Customer Classification – We identified three customer classification issues that
    could impact the proper reporting to TVA and/or nondiscrimination power contract
    provisions. The issues were (1) incorrect use of contract demand in the billing system,
    (2) commercial accounts incorrectly classified as residential, and (3) rounding of meter
    reading data. We were unable to estimate the monetary effect of all the issues we
    identified because in some instances information was not available. However, for those
    instances where information was available, the monetary impact would not be
    significant to Oak Ridge or TVA.



                                                                                       Page i
                      Audit 2009-12595 – Distributor Audit of the
                                  City of Oak Ridge
                                   EXECUTIVE SUMMARY

   Other Issues – We identified five additional areas where Oak Ridge (1) was not
    meeting other power contract provisions or (2) could strengthen its internal controls.
    Other power contract compliance issues we identified were: (1) meter testing results
    were accepted although they fell outside the accuracy standards of the power contract,
    (2) costs were not allocated according to the approved TVA joint cost study, and
    (3) required customer contracts were not on file. Oak Ridge’s internal controls could be
    strengthened related to (1) completeness of customer contract documentation and
    (2) accuracy of contract demand in the billing system.

  We also identified three areas where TVA’s oversight of distributors should be enhanced.
  Two are new oversight issues addressing (1) the process for verifying accuracy of DAR
  information and (2) meter accuracy testing standards. The remaining issue, regarding the
  lack of a current joint cost study, has been reported in previous OIG distributor audits. TVA
  has agreed to take corrective action on this issue.

What the OIG Recommends

  We recommend the Group President, Strategy and External Relations, work with Oak
  Ridge to (1) comply with power contract provisions, (2) remediate classification issues,
  and (3) strengthen internal controls.

  In addition, the Group President, Strategy and External Relations, should (1) implement
  process(es) for verifying the accuracy of DAR information to adequately identify and
  address reporting errors and (2) revise TVA Comprehensive Services meter accuracy
  testing standards to comply with the standards placed on the distributor in the power
  contract.

Oak Ridge and TVA Management’s Comments

  Oak Ridge and TVA management agreed with 11 of our 17 recommendations and have
  taken or are taking actions to address the recommendations. The target completion dates
  for actions related to correcting these recommendation ranges from August 2011 to
  December 2012. In addition, either TVA and/or Oak Ridge have already taken action or
  plan to take action to address another 5 of our recommendations even though both parties
  did not agree with each recommendation. Oak Ridge and TVA disagreed with the
  remaining recommendation and did not intend on taking action to address the issue. See
  Appendix B for Oak Ridge's complete response and Appendix C for TVA’s complete
  response.

Auditor’s Response

  Although the OIG, Oak Ridge, and TVA management did not similarly interpret the facts
  on which our findings and recommendations are based, the OIG concurs with the actions
  taken and/or planned by Oak Ridge and/or TVA to correct the identified issues for 16 of
                                                                                        Page ii
                   Audit 2009-12595 – Distributor Audit of the
                               City of Oak Ridge
                                EXECUTIVE SUMMARY

the 17 recommendations. The recommendation that Oak Ridge and TVA management do
not intend to take corrective action on relates to replacing meters that were not accurate
within 2 percent. However, TVA management offers a new determination for accuracy of
meters tested in the field versus meters tested under more accurate laboratory conditions
in their comments to another recommendation in this report. The OIG would suggest that
TVA communicate this new determination to all distributors.




                                                                                    Page iii
Office of the Inspector General                                                                     Audit Report


BACKGROUND
The city of Oak Ridge1 is a distributor for Tennessee Valley Authority (TVA)
power based in Oak Ridge, Tennessee, with revenues from electric sales of
approximately $52 million in fiscal year (FY) 2009. Prior to April 1, 2011, TVA
relied on distributors to self-report customer usage and subsequently the amount
owed to TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classes are various rate
classifications based on the customer type and usage. Table 1 shows the
customer mix for Oak Ridge as of June 2009.

                          Oak Ridge’s Customer Mix as of June 2009
                                                Number of                                      Kilowatt
        Customer Classification                                         Revenue
                                                Customers                                     Hours Sold
    Residential                                         13,608             $17,451,002           168,807,046
    General Power – 50 Kilowatt (kW)
                                                         1,840                4,309,974            37,383,791
    and Under (Commercial)
    General Power – Over 50 kW
                                                           354              29,376,526           309,063,323
    (Commercial or Manufacturing)
    Street and Athletic                                      61               1,025,456             5,311,401
                      2
    Outdoor Lighting                                          0                 206,309             1,510,065
    Unbilled Revenue                                                        (604,269)3
     Total                                              15,863             $51,764,998           522,075,626
                                                                                                        Table 1

Oak Ridge is operated as part of the city municipal government rather than as a
separate entity. The electric system operations are divided between the city’s
Administrative Services Department and the Electric Department. The
Administrative Services Department handles the accounting and finance
responsibilities in addition to overseeing residential services. The Electric
Department handles commercial services as well as system-wide meter reading
and maintenance of the transmission system. The city's Finance Director
(member of the Administrative Services Department) and the Electric Department
Director manage the daily activities of their respective departments. The City
Council, Mayor, and City Manager provide oversight of both departments.


1
     The wholesale power contract is between “Oak Ridge, Tennessee,” and TVA. The city of Oak Ridge
     provides various municipal services, including the electric system function. We use “Oak Ridge” to refer
     to this distributor (Administrative Services Department and Electric Department) in this report.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts with
     Oak Ridge at June 30, 2009. In addition, another 532 customers had Outdoor Lighting accounts as well
     as accounts for other services. However, the totals for “Revenue” and “Kilowatt Hours Sold” include both
     categories of Outdoor Lighting customers.
3
     This is the net of current year unbilled revenue and the prior year unbilled revenue that is included in the
     customer classification amounts on the lines above.
Audit 2009-12595                                                                                          Page 1
Office of the Inspector General                                           Audit Report


All distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Oak Ridge utilizes its own in-house billing system to establish
and set up new customers, input customer meter information, perform the
monthly billing process, and execute customer account maintenance.

FINDINGS
Substantial improvements are necessary for Oak Ridge to comply with certain
power contract provisions pertaining to:

 Electric system revenues in order for the electric system to operate on a self-
  supporting and financially sound basis.
 Financial reporting that could impact TVA’s analysis of the distributor’s
  financial position and whether rate increases are warranted.

Improvements should also be implemented pertaining to:

 Customer classifications that could impact compliance with the proper
   reporting of electric sales to TVA and/or nondiscrimination power contract
   provisions.
 Compliance with other power contract provisions and strengthening internal
  controls.

We also identified three areas where TVA’s oversight of distributors should be
enhanced. Two are new oversight issues, and the remaining issue has been
reported in previous Office of the Inspector General (OIG) distributor audits. TVA
has agreed to take corrective action on this issue.

EXPENDITURES OF ELECTRIC SYSTEM REVENUES DID NOT
COMPLY WITH CONTRACT
Section 6 of the power contract states approved uses of revenues from electric
system operations, including any surplus, are to be paid in the following order:
(1) operating expenses, (2) debt service, (3) reasonable reserves for renewals,
replacements, and contingencies, and cash working capital adequate to cover
operating expenses for a reasonable number of weeks, (4) tax equivalent
payments, and (5) new electric system construction or the retirement of debt prior
to maturity. Although funds were disbursed for electric system purposes, Oak
Ridge did not make expenditures in the proper order required by Section 6 of the
contract. Specifically, Oak Ridge (1) had not paid $1,581,486 of electric
operating obligations incurred, (2) made payments in lieu of taxes of $3,089,000
during the 24-month audit period before (a) all operating obligations were paid
and (b) reasonable reserves were in place, and (3) did not have reasonable
reserves prior to making payments in lieu of taxes. As of June 30, 2009, Oak
Ridge had a 0.89 percent cash ratio before considering planned FY 2010 capital
expenditures and a negative 3.60 percent cash ratio after considering planned
FY 2010 capital expenditures.
Audit 2009-12595                                                                Page 2
Office of the Inspector General                                                                 Audit Report


Insufficient Revenues to Support the Electric System
Our review of the June 30, 2009, electric system trial balance indicated Oak
Ridge owed the city general fund $1,581,486, which exceeds our dollar value
threshold for significance. The city general fund is comprised of revenue
received by the city for taxes, fees, fines, court costs, and other nonutility income.
According to the Finance Director, the city general fund pays city-wide
obligations and then charges all the municipal departments an allotted portion of
the obligation. The Finance Director indicated Oak Ridge could not pay the
amount(s) owed to the city general fund and other operating obligations;
therefore, the amount(s) owed to the city general fund were not paid. According
to the Finance Director, Oak Ridge has owed the city general fund for over
20 years.

Section 5(c) of the power contract states:

     If the rates and charges provided for in said resale schedules do not produce
     revenues sufficient to provide for the operation and maintenance of the
     electric system on a self-supporting and financially sound basis, including
     requirements for interest and principal payments on indebtedness incurred or
     assumed by Municipality for the acquisition, extension, or improvement of the
     electric system (hereinafter called “System Indebtedness”), the parties shall
     agree upon, and Municipality shall put into effect promptly, such changes in
     rates and charges as will provide the increased revenues necessary to place
     the system upon a self-supporting and financially sound basis.

Additionally, Section 4 of the power contract states wholesale payments “shall be
made solely and exclusively from the revenues of the electric system and shall
not be a charge upon Municipality’s general funds.” Since Oak Ridge has not
paid the city general fund for its portion of allocated expenses, it appears some
portion of the monthly wholesale payment to TVA was paid using city general
funds.

During the exit meeting on March 28, 2011, Oak Ridge informed us the loan to the
city general fund was repaid in FY 2010, after $5 million in Build America Bonds
was obtained, and the resale rates were also increased after the audit period.4
Oak Ridge explained that rather than incur debt at a higher interest rate in
FYs 2008 and 2009, the electric system decided to “borrow” from the city general
fund, which provided a lower interest rate on the “loan.” Oak Ridge also stated
borrowing from the city general fund was common for short-term financing and
had been utilized for years. Oak Ridge confirmed the borrowed amount was to
cover electric system operating obligations so electric system revenues could be
used for capital projects. However, by signing the contract, Oak Ridge agreed to
use electric system revenues to pay for items in a specific order. As mentioned


4
    We reviewed the city’s FY 2010 combined financial statements and noted $5 million in bonds was issued
    to the electric system to be used for capital projects. We also determined Oak Ridge raised resale rates
    2.24 percent in October 2010.
Audit 2009-12595                                                                                     Page 3
Office of the Inspector General                                           Audit Report


above, Section 6(a) of the contract requires revenues to be used as follows:
(1) operating expenses, (2) debt service, (3) reasonable reserves for renewals,
replacements, and contingencies, and then (4) tax equivalent payments. After all
Section 6(a) obligations are met, Section 6(b) of the contract indicates any
remaining revenues are considered surplus and may be used for new electric
system construction or the retirement of system indebtedness prior to maturity.
Therefore, Oak Ridge’s practice of borrowing from the city general fund to cover
electric system operating obligations does not comply with the contract terms and
results in the city general fund subsidizing the electric system.

Tennessee Code Annotated, Title 7, Chapter 34, Part 1, Subpart 15, allows a
municipality to subsidize a utility from general funds but only if specifically
included in the adopted budget. Oak Ridge’s FY 2009 budget did not include
financing from the general fund to the electric system.

Payments in Lieu of Taxes Made Prior to Satisfying Contract Provisions
Oak Ridge made payments in lieu of taxes even though all electric operating
obligations were not covered by electric system revenues. According to the
power contract's Schedule of Terms and Conditions Section 2(c), payments in
lieu of taxes:

    …shall be made only from current electric system revenues remaining after
    payment of or making reasonable provision for payment of (i) current
    operating expenses of the electric system, including without limitation
    salaries, wages, costs of materials and supplies, cost of power, and
    insurance; (ii) current payments of interest on electric system indebtedness,
    and payment of principle thereof, including amortization, reserve and sinking
    fund payments, when due; and (iii) reasonable reserves for renewals,
    replacements, and contingencies and for cash working capital.

During our audit period, the payments in lieu of taxes to the city of Oak Ridge,
Roane County, and Anderson County totaled $3,089,000, which exceeds our
dollar value threshold for significance.

At the exit meeting on March 28, 2011, Oak Ridge expressed concern about its
legal obligations regarding payments in lieu of taxes. Oak Ridge indicated the
payments in lieu of taxes were not optional and had to be paid; therefore, they
were operating costs. However, according to the contract, payments in lieu of
taxes are not considered operating costs and should only be paid after
reasonable reserves are accumulated. Additionally, Tennessee Code Annotated,
Title 7, Chapter 52, Part 3, Subpart 4, lists the same constraints for payments in
lieu of taxes as the contract unless there is a local resolution that requires
payments in lieu of taxes to be made. We were not able to locate such a local
resolution for Oak Ridge.




Audit 2009-12595                                                               Page 4
Office of the Inspector General                                                                   Audit Report


Reasonable Reserves Not Retained Prior to Payments in Lieu of Taxes
Oak Ridge did not have reasonable reserves as required by the contract prior to
making payments in lieu of taxes. TVA’s guidelines for adequate cash reserves
call for a cash ratio of 5 to 8 percent.5 As of June 30, 2009, Oak Ridge had a
0.89 percent cash ratio before considering planned FY 2010 capital expenditures
and a negative 3.60 percent cash ratio after considering planned FY 2010 capital
expenditures. Specifically, Oak Ridge had $413,193 in cash and cash equivalents
and $2,090,000 in planned capital projects for FY 2010 that would result in a
negative $1,676,807 cash balance (see Table 2 below). This amount exceeds our
dollar value threshold for significance.

       Oak Ridge’s Cash Accounts Compared to Planned Capital Expenditures
                                    Cash and Cash      FY 2010
                                                                              Reserve After Planned
                                    Equivalents at Planned Capital
                                                                               Capital Expenditures
                                    June 30, 2009   Expenditures
    Amount                             $413,193            $2,090,000               ($1,676,807)

    Cash Ratio Percentage               0.89%                                          (3.60)%
                                                                                                  Table 2

According to TVA records, as of our audit period, Oak Ridge was approved for
rate increases in 2004, 2005, 2006, and 2008. Table 3 below shows the rate
increases received by Oak Ridge and the cash position and cash ratio at June 30
prior to the effective date of the rate change.

            Oak Ridge’s Rate Increases, Cash Position, and Cash Ratio
          Cash on Hand             Cash and Cash                       Rate Increase7
        Equivalent to an 8%         Equivalents6          Change in
            Cash Ratio             and Cash Ratio                         Percent Effective Date
                                                          Revenue
                                      $1,937,494
             $2,577,242                                   $1,183,899       3.36%        11/1/2004
                                      (CR = 6.01%)
                                      $1,698,293
             $2,489,784                                    $353,000        1.04%        10/1/2005
                                      (CR=5.46%)
                                      $1,436,696
             $2,699,222                                    $420,000        1.20%        10/1/2006
                                      (CR=4.26%)
                                       $514,407
             $2,986,288                                   $1,300,000       3.16%         4/1/2008
                                      (CR=1.38%)
                                                                                               Table 3



5
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                          Cash + Cash Equivalents_______________________
                              Total Variable Expenses (Operations and Maintenance + Purchased Power)
6
    The cash and cash equivalents and cash ratio were computed based on information from Oak Ridge’s
    annual report as of June 30 prior to the effective date of the rate increase.
7
    These are the rate increases enacted by the distributor. These increases do not include any rate
    increases or decreases made by TVA, including Fuel Cost Adjustments, which were passed through by
    the distributor to the customer.
Audit 2009-12595                                                                                       Page 5
Office of the Inspector General                                         Audit Report


Discussions with Oak Ridge’s Finance Director indicated the electric system’s
cash reserves were low because in previous years improvements had been
made for transmission system reliability. Distributors usually have cash reserves
as a hedge against the risks of unforeseen costs from an aging infrastructure
(e.g., equipment failure), potential loss of revenue from the economic impact on
commercial and industrial customers, and unpredictable weather.

FINANCIAL REPORTING DID NOT COMPLY WITH CONTRACT
We identified three areas where Oak Ridge’s financial reporting to TVA did not
comply with “Financial and Accounting Policy,” Section 1, of the Schedule of
Terms and Conditions of the power contract, or generally accepted accounting
practices. Specifically, Oak Ridge (1) did not comply with the power contract
provisions requiring use of the Federal Energy Regulatory Commission (FERC)
Uniform System of Accounts (USofA), (2) incorrectly reported items to TVA in the
Distributor Annual Report (DAR), and (3) incorrectly accounted for payable(s) to
the city general fund.

FERC USofA Not Followed
According to the power contract's Schedule of Terms and Conditions Section
1(b), Oak Ridge is required to keep the electric system general books of
accounts according to the FERC USofA. The FERC USofA provides account
structure including a numbering system for accounts and description(s) of
charges to be included in each account. In addition, the FERC USofA indicates if
a distributor does not use the prescribed account structure, a reconciliation
between the account structure in place and the prescribed chart of accounts
must be performed and maintained. Oak Ridge was not using the account
structure prescribed in the FERC USofA, and no reconciliation of the accounts
had been performed, which contributes to the DAR reporting findings described
below.

Incorrect DAR Reporting
Distributors are required by the power contract's Schedule of Terms and
Conditions Section 1(c) to report financial and statistical information annually to
TVA. Distributors report this information in the DAR using the prescribed FERC
USofA account structure as described in the Accountants’ Reference Manual.
The Accountants’ Reference Manual provides guidance for distributors on account
structure and how to report the various accounts in the DAR. As discussed
above, Oak Ridge did not use the prescribed FERC USofA account structure or
have the required reconciliation between the prescribed account structure and the
account structure in place. We reconciled the account structure used by Oak
Ridge to the prescribed FERC USofA account structure. Using the reconciled
account structure and the FY 2009 trial balance, we determined the amounts that
should have been reported in the Balance Sheet and the Revenue and Expense
Statement portions of the FY 2009 DAR. We found Oak Ridge was incorrectly
reporting certain assets, liabilities, expenses, and income in the DAR.


Audit 2009-12595                                                             Page 6
Office of the Inspector General                                                                Audit Report


Specifically, we found:

    9 instances where trial balance amounts were reported incorrectly to TVA in
     the FY 2009 DAR:
      Amounts owed to the city general fund were subtracted from the line item
         “Accounts receivable” (“Current and Accrued Assets” section) rather than
         reported in the line item “Accounts payable” (“Current and Accrued
         Liabilities” section). The accounts receivable line item had been reduced
         by the amount owed to the city general fund; therefore, both the total
         assets and total liabilities reported to TVA were understated by the
         amount. As previously discussed, the total amount owed to the city
         general fund as of June 2009 was $1,581,486, which exceeds our dollar
         value threshold for significance.
      Prepayments of $1.5 million for inventory and supplies were included at
         the “Materials and supplies” line item rather than the “Prepayments” line
         item of the “Current and Accrued Assets” section.
      Cash investments of $395,350 were included as part of the line item
         “General cash and temporary investments” (“Current and Accrued Assets”
         section) rather than in line item “Other investments” (“Other Property and
         Investments” section).
      Restricted cash related to required bond reserves of $139,881 was
         included as part of the line item “General cash and temporary
         investments” (“Current and Accrued Assets” section) rather than in the line
         item “Sinking Funds” (“Other Property and Investments” section).8
      Accounts receivable for other electric-related services of $120,497, such
         as pole rental, were included as part of the line item “Other current assets”
         (“Current and Accrued Assets” section) rather than reported in the line
         item “Accounts receivable” (“Current and Accrued Assets” section).
      Accounts for expenses other than operation and maintenance totaling
         $104,900 were included as part of “Operating Expense” and “Maintenance
         Expense” sections.
      Accounts for expenses other than tax and tax equivalents totaling $53,825
         were included as part of the line item “Tax and tax equivalents” (Other
         operating expense” section).
      Other income accounts totaling $5,275 were not included as part of line
         item “Other income” (“Income” section).
      Expense accounts totaling $164,000 were not included as part of line item
         “Miscellaneous Income Deductions” (“Income” section).




8
    We removed the restricted cash amount from the general cash balance to calculate the cash ratios in the
    “Use of Electric System Revenues” section above.
Audit 2009-12595                                                                                    Page 7
Office of the Inspector General                                                               Audit Report


The overall effect on Oak Ridge’s DAR was (1) assets and liabilities were
understated, and (2) line item amounts on the Balance Sheet and the Revenue
and Expense Statement portions were reported incorrectly. Because TVA uses
DAR information to analyze a distributor’s financial position and determine
whether rate increases are warranted, financial reporting must be accurate.

Accounts Payable Not Reported Separately From Accounts Receivable
Oak Ridge’s accounting practices could be improved related to accounting for
payables to the city general fund. In addition to incorrectly reporting the amount
owed to the city general fund to TVA on the DAR, Oak Ridge also incorrectly
recorded the amount owed to the city general fund in the electric system general
ledger. Rather than recording the amount owed as a payable due to the city
general fund, Oak Ridge subtracted the amount owed from the receivable due
from the city general fund. Standard accounting practices separate payables and
receivables into individual accounts with payables recorded as a liability and
receivables recorded as an asset. As discussed above, current assets and
current liabilities were understated to TVA by the balance owed to the city
general fund in the electric system general ledger (i.e., $1,581,486). Recording
amounts in the proper accounts and categories in the general ledger ensures the
distributor’s true financial position is documented.

We noted the FYs 2008 and 2009 audited financial statements contain a payable
due to other funds. During the exit meeting on March 28, 2011, the Finance
Director stated there is only an asset account to record amounts due to/due from
other funds. If the amount is negative at the end of the year, a payable account
must be manually created on the financial statements, but a payable is not
created in the general ledger.

IMPROPER REPORTING OF ELECTRIC SALES AND/OR
POTENTIAL DISCRIMINATION IN PROVIDING POWER TO
CUSTOMERS
During our review of Oak Ridge’s billing data, we identified three customer
classification issues that could impact the (1) proper reporting of electric sales
and/or (2) ability to ensure nondiscrimination in providing power to members of
the same rate class.9 The issues were (1) incorrect use of contract demand in
the billing system, (2) commercial accounts incorrectly classified as residential,
and (3) rounding of meter reading data. We were unable to estimate the
monetary effect of all the issues we identified because in some instances
information was not available. However, for those instances where information
was available, the monetary effect on Oak Ridge and TVA would not be
significant. As discussed in detail below, correcting classification issues is


9
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Oak Ridge dated
    May 1, 1980, states “…power purchased hereunder shall be sold and distributed to the ultimate
    consumer without discrimination among consumers of the same class and that no discriminatory rate,
    rebate, or other special concession will be made or given to any consumer, directly or indirectly.”
Audit 2009-12595                                                                                   Page 8
Office of the Inspector General                                                                       Audit Report


important to ensure all customers are placed in the correct rate classification and
charged the same rate as other customers with similar circumstances.

Customer Classification Issues
The GSA schedule is divided into three parts – Part 1, Part 2, and Part 3 – based
on electric usage and demand.10 As discussed below, we found a total of (1) 42
out of 3,157 (1.3 percent) GSA Part 211 or higher accounts with contract demand
and residential accounts were misclassified, and (2) 14 out of 2,395 (0.5 percent)
GSA Part 1 accounts that could be potentially misclassified.

Misclassifications of GSA Part 2 or Higher Accounts
Specifically, we found:

     8 out of 48 GSA customer accounts with contract demand (16.7 percent)
      were misclassified during the audit period. These misclassifications resulted
      from a programming error in the billing system based on Oak Ridge
      personnel’s misunderstanding of the contract terms. Oak Ridge personnel
      programmed its billing system to use 30 percent of the contract demand12
      amount to determine the classification of a GSA customer, rather than using
      the entire contract demand amount. Of these 8 customer accounts:
       3 accounts should have been classified as GSA Part 2 rather than
         GSA Part 1.
       5 accounts should have been classified as GSA Part 3 rather than
         GSA Part 2.


10
     Demand is a measure of the rate at which energy is consumed. The demand an electric company must
     supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
     for more than a few hours or fractions of hours each month or year, but electric companies must maintain
     sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
     the high costs electric companies pay for generating and transmission capacity that sits idle most of the
     time. Demand charges are based on the amount of energy consumed in a specified period of time
     known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
     December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
     Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
     For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
     metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
     month of the load metered in kW.”
11
     Under the General Power Rate – Schedule GSA adopted by Oak Ridge, customers are classified based
     on the following requirements:
      GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
          highest billing demand during the latest 12-month period is not more than 50 kW and (b) the
          customer’s monthly energy takings for any month during such period do not exceed 15,000 kWh.
      GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
          highest billing demand during the latest 12-month period is greater than 50 kW but not more than
          1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
          month during such period exceed 15,000 kWh.
      GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
          billing demand during the latest 12-month period is greater than 1,000 kW.
12
     A customer's contract demand is the amount of power that a customer agrees to pay to have available at
     all times. Because this refers to power that must be made available, as opposed to energy that can
     actually be consumed, contract demand is measured in kW, not kWh.
Audit 2009-12595                                                                                            Page 9
Office of the Inspector General                                                                  Audit Report


     34 out of 3,109 customer accounts (1.1 percent) were classified as residential
      customers instead of GSA schedule customers:
       21 customer accounts were group homes or homes used by businesses to
         house multiple individuals at once. The Residential Rate - Schedule RS13
         applies “only to electric service to a single-family dwelling.” According to
         TVA personnel, a group home is not considered a single-family dwelling;
         therefore, the RS Schedule does not apply. Group homes should be
         classified within the appropriate part of GSA schedule based on usage
         and demand takings.
       11 customer accounts were commercial businesses that should be
         classified as commercial.
       1 customer account was for commercial lighting, such as security lighting
         at an apartment complex, etc., that should be classified as commercial.
       1 customer account was for a well pump at a residential location.
         Schedule RS applies “only to electric service to a single-family dwelling.”
         Since a well pump is not a single family dwelling, the pump does not
         qualify for the residential rate.

      Oak Ridge reclassified 18 of the 34 customer accounts from residential to
      commercial (GSA schedule). After the exit meeting on March 28, 2011, Oak
      Ridge indicated the remaining 16 accounts were correctly classified as
      residential. However, we determined the 16 accounts were group homes,
      half-way houses, or mental health centers, which do not qualify as single-
      family dwellings, and therefore they should be reclassified to commercial.

Potential Misclassifications of GSA Part 1 Accounts
Oak Ridge collects fractional meter readings but rounds the meter data to whole
numbers when uploading the meter data to the billing system. We identified
14 out of 2,395 (0.5 percent) GSA Part 1 customer accounts with exactly 50 kW
of demand. Because Oak Ridge rounds meter data, these customers could have
had demand readings between 49.499 kW and 50.000 kW, which would result in
a classification of GSA Part 1, or 50.001 kW and 50.499 kW, which would result
in a classification of GSA Part 2. GSA Part 2 customers, unlike GSA Part 1
customers, are charged on wholesale and retail billings for demand takings
greater than 50 kW. In addition, GSA Part 2 customers are charged a
(1) reduced rate for energy takings greater than 15,000 kWh on wholesale and
retail billings as well as (2) higher retail customer charge. As a result of the
misclassifications, wholesale and end-use customer billing amounts may have
been over or understated.



13
     Under the Residential Rate – Schedule RS adopted by Oak Ridge, customers are classified based on
     the following requirement: “This rate shall only apply to electric service to a single-family dwelling
     (including its appurtenances if served through the same meter), where the major use of electricity is for
     domestic purposes such as lighting, household appliances, and the personal comfort and convenience of
     those residing herein.”
Audit 2009-12595                                                                                     Page 10
Office of the Inspector General                                         Audit Report


OTHER ISSUES
We identified 5 additional areas where Oak Ridge was not meeting other power
contract requirements with TVA or could strengthen its internal controls pertaining
to customer contracts. Other power contract compliance issues we identified were:
(1) meter testing results were accepted although they fell outside the accuracy
standards of the power contract, (2) costs were not allocated according to the
approved TVA joint cost study, and (3) required customer contracts were not on
file. Oak Ridge’s internal controls could be strengthened related to (1) customer
contract documentation and (2) accuracy of contract demand in the billing system.
Details of the 5 areas are discussed below.

Meter Accuracy Testing Did Not Comply With Contract
Oak Ridge and TVA Comprehensive Services did not comply with Section 10 of
the power contract. Specifically, Section 10 “Meter Tests” of the Rules and
Regulations Governing Electric Power Distribution within the power contract
indicates end-use customer meters should be accurate within 2 percent, slow or
fast. We found TVA Comprehensive Services performed meter testing at the
request of Oak Ridge. Out of 8 meter tests performed, 2 meters’ test results fell
outside of the allowable 2 percent margin. One meter’s test results indicated
meter accuracy was more than 9 percent fast and was correctly deemed outside
the acceptable accuracy standards. This meter was replaced. The other meter’s
test results indicated meter accuracy was more than 4 percent slow; however,
this meter was incorrectly deemed to be operating within acceptable accuracy
standards. Oak Ridge accepted the test results provided by TVA and did not
replace the meter.

Unapproved Allocation of Joint Costs
Cost allocations between Oak Ridge and other city funds were not made in
accordance with the most recent TVA-approved joint cost study. Under the power
contract's Schedule of Terms and Conditions Section 1(a), the distributor is
allowed to “use property and personnel jointly for the electric system and other
operations, subject to agreement between Municipality and TVA as to appropriate
allocations.” The last cost study performed by TVA was conducted 28 years ago
in 1983. At some point after 1983, without approval by TVA, Oak Ridge
developed different cost allocations and applied the new allocations to distribute
joint costs.

Customer Contracts Not on File
Oak Ridge did not have a customer contract on file for 6 of the 18 GSA Part 3 or
higher customer accounts. The GSA schedule from TVA requires all customers
who exceed 50 kW per month to sign a formal contract. However, TVA
management, in response to previous OIG reports, indicated the threshold of
50 kW for requiring customer contracts was too low. TVA management will
recommend to the TVA Board that a new and higher threshold be established as



Audit 2009-12595                                                           Page 11
Office of the Inspector General                                                                    Audit Report


part of the rate change process with the distributors.14 In further discussions with
TVA personnel, the proposed threshold for requiring a contract is 1 megawatt
(MW), which classifies an account as at least GSA Part 3. Each customer
contract includes a contract demand that is used in placing the customer in the
correct classification. Contract demand is also used in calculating the customer’s
billed demand and minimum bill.

Customer Contract Documentation Could Be Improved
Two internal control issues related to 4 of the12 GSA Part 3 or higher customer
accounts with contracts at Oak Ridge could be strengthened. Customer
contracts did not include (1) evidence of appropriate approval and (2) certification
for manufacturing customers. Specifically, we found:

     2 contracts did not contain evidence of approval. One contract was not
      signed by Oak Ridge, and the other contract was not signed by either the
      customer or Oak Ridge.
     Customer certification was not included as part of the contract file
      documentation for the 2 customer accounts under manufacturing service
      schedules. The power contract between TVA and Oak Ridge requires the
      customer certify to Oak Ridge on a TVA-approved form that it meets all the
      requirements of the manufacturing classification.

Maintenance of complete customer contract documentation is important to
ensure customers are correctly classified and billed in accordance with the
contract terms.

Contract Demand in Billing System Did Not Agree With Contract
Two other internal control issues that could be strengthened were related to
entering contract demand in the billing system. We identified 3 accounts where
the contract demand per the contract did not agree with the contract demand
entered into the billing system. Specifically, we found (1) 1 account did not have
a contract on file but had a contract demand amount entered in the billing
system, and (2) 2 accounts had a contract demand amount in the system that did
not agree with the contract demand amount per the contract--one was higher and
one was lower. Contract demand should be entered into the billing system at the
agreed-upon contract amount to ensure proper calculation of the customer’s bill
for both the monthly demand charge and the minimum bill amount.




14
     On February 2, 2011, TVA issued guidance to distributors changing the contract requirement threshold
     from 50 kW to 1 megawatt with flexibility for distributors to implement a lower limit. The guidance also
     stated effective, signed contracts should be retained in customer files for all customer accounts that meet
     the threshold requirement.
Audit 2009-12595                                                                                       Page 12
Office of the Inspector General                                           Audit Report


TVA OVERSIGHT OPPORTUNITIES
We identified 2 new opportunities to enhance TVA’s oversight of the distributors.
Specifically, we found:

    TVA’s process for verifying accuracy of DAR information did not adequately
     identify and address reporting errors.
    The meter accuracy testing standards used by TVA Comprehensive Services
     did not comply with the standards placed on the distributor in the power
     contract.

We also noted one issue for this distributor that was reported in previous OIG
distributor reports. Specifically, we noted TVA has not performed a current joint
cost study. The last joint cost study was conducted 28 years ago in 1983. The
Accountants’ Reference Manual states a joint cost study should be performed
every three or four years or when a significant change occurs. In response to the
previous reports, TVA agreed to take corrective actions on this issue.

Full discussion of the previously reported issues and TVA’s planned actions can
be found in prior OIG distributor reports on our Web site, www.oig.tva.gov.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Oak Ridge to improve compliance with the contract and/or strengthen internal
controls. Specifically, Oak Ridge should:

1.    Review retail rates and/or operating costs and, after considering the order in
      which electric system revenues are contractually required to be used, revise
      retail rates and/or operating costs as appropriate to enable the electric
      system to be self-supporting and financially sound.

      Oak Ridge’s Response – Oak Ridge disagreed with the finding related to
      this recommendation and stated the electric system was financially strong,
      and the amount owed to the city was a loan. However, Oak Ridge stated
      the intent of the recommendation was implemented through repayment of
      the debt owed to the city general fund in November 2009 and raising electric
      rates in October 2010. In addition, Oak Ridge stated that cash and reserve
      ratios will be monitored and adjusted accordingly. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management viewed the amount
      owed to the city as a loan. However, TVA management agreed that loans
      should be taken into consideration when evaluating whether Oak Ridge is
      operating on a self-supporting and financially sound basis. TVA
      management stated that while Oak Ridge has now repaid the amount owed

Audit 2009-12595                                                             Page 13
Office of the Inspector General                                           Audit Report


      to the city and increased electric retail rates, TVA management will monitor
      Oak Ridge's loan practices going forward. See Appendix C for TVA’s
      complete response.

      Auditor’s Response – While the OIG, Oak Ridge, and TVA management
      disagree regarding the nature of the $1.5 million in unpaid obligations due to
      the city general fund noted in the audit, the OIG concurs with the actions
      planned and/or taken by Oak Ridge and TVA.

2.    Review and revise annual payment in lieu of tax amounts to comply with
      conditions set forth in the power contract.

      Oak Ridge’s Response – Oak Ridge disagreed that the payment in lieu of
      taxes practices during the audit period violated the contract conditions.
      However, Oak Ridge stated the intent of the recommendation was
      implemented through repayment of the debt owed to the city general fund in
      November 2009 and raising electric rates in October 2010. In addition, Oak
      Ridge stated that cash and reserve ratios will be monitored and adjusted
      accordingly. See Appendix B for Oak Ridge's complete response.

      TVA Management’s Comments – TVA management disagreed with the
      recommendation based on the view that the amount owed to the city was a
      loan, and the power contract does not require a loan to be repaid in its
      entirety prior to making payments in lieu of taxes. See Appendix C for
      TVA’s complete response.

      Auditor’s Response – While the OIG, Oak Ridge, and TVA management
      disagree regarding the nature of the $1.5 million in unpaid obligations due to
      the city general fund noted in the audit, the OIG concurs with the actions
      planned and/or taken by Oak Ridge.

3.    Maintain a reasonable reserve before making payments in lieu of taxes to
      comply with conditions set forth in the power contract.

      Oak Ridge’s Response – Oak Ridge disagreed with the finding related to
      this recommendation and stated the payments in lieu of taxes did not violate
      the contract conditions. However, Oak Ridge stated the intent of the
      recommendation was implemented through repayment of the debt owed to
      the city general fund in November 2009 and raising electric rates in
      October 2010. In addition, Oak Ridge stated that cash and reserve ratios
      will be monitored and adjusted accordingly. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management disagreed with the
      recommendation and stated a distributor has discretion to establish its level
      of reasonable reserves. TVA management further stated it did not see any
      reason Oak Ridge could not make payments in lieu of taxes without having

Audit 2009-12595                                                             Page 14
Office of the Inspector General                                           Audit Report


      a higher level of reserves. However, TVA management did state that Oak
      Ridge's loan practices will be monitored to ensure Oak Ridge is operating
      on a financially sound basis. See Appendix C for TVA’s complete response.

      Auditor’s Response – While the OIG, Oak Ridge, and TVA management
      disagree regarding the establishment of reasonable reserves during the
      audit period, the OIG concurs with the actions planned and/or taken by Oak
      Ridge and TVA.

4.    Revise account structure to comply with FERC USofA or prepare and
      maintain a reconciliation of the current account structure and the prescribed
      FERC account structure.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated a reconciliation of the current account structure and the prescribed
      account structure will be prepared within 6 to 8 months. See Appendix B for
      Oak Ridge's complete response.

      TVA Management’s Comments – TVA management agreed the account
      structure should be kept according to FERC and plans to discuss this
      recommendation with Oak Ridge. The target completion date for this action
      is May 2012. See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

5.    Prepare the DAR using (1) line item reporting guidance contained in the
      Accountants’ Reference Manual and (2) amounts supported by the trial
      balance.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated Oak Ridge will work with TVA to clarify areas of misunderstanding or
      ambiguity. The target completion date for this action is June 2012. See
      Appendix B for Oak Ridge's complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and plans to discuss this recommendation with Oak Ridge.
      The target completion date for this action is May 2012. See Appendix C for
      TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

6.    Correct the general ledger to properly record the amounts due to the general
      fund as a payable.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      agreed to correct the general ledger. The target completion date for this
      action is June 2012. See Appendix B for Oak Ridge's complete response.

Audit 2009-12595                                                             Page 15
Office of the Inspector General                                         Audit Report


      TVA Management’s Comments – TVA management agreed with the
      recommendation to the extent necessary to carry out Section 1 of the Terms
      and Conditions of the power contract. TVA management plans to discuss
      this recommendation with Oak Ridge. The target completion date for this
      action is May 2012. See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

7.    Correct billing system programming to use entire contract demand amount
      when classifying GSA customers.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated the billing system programming will be corrected. The target
      completion date for this action is August 2011. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated Oak Ridge plans to correct the billing system
      programming. The target completion date for this action is December 2012.
      See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

8.    Correct customer misclassifications identified and implement procedures to
      assist in identifying residential accounts that need to be reclassified as
      commercial when service starts or changes to a nonresidential type (i.e.,
      business or a separately metered structure).

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated a systematic approach to examining accounts needs to be developed
      and implemented. The development and implementation account
      examination will be the responsibility of the business office manager who is
      expected to be hired within the next 60 days. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management agreed customer rate
      classification should comply with rate schedules and plans to discuss this
      recommendation with Oak Ridge. The target completion date for this action
      is May 2012. See Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.




Audit 2009-12595                                                           Page 16
Office of the Inspector General                                            Audit Report


9.    Revise billing system programming to use fractional data obtained from
      meter readings to classify customers, calculate customer bills, and report
      wholesale information to TVA based on the fractional thresholds stated in
      the approved rate schedules and power contract.

      Oak Ridge’s Response – Oak Ridge disagreed with the recommendation
      and objects to the premise that rounding is inappropriate. Oak Ridge stated
      that reprogramming the billing system to address this issue would be costly.
      However, Oak Ridge did state a new billing system will be installed over the
      next several years and will consider increasing the number of digits
      displayed during that time. See Appendix B for Oak Ridge's complete
      response.

      TVA Management’s Comments – TVA management disagreed with this
      recommendation and stated the power contract did not require a particular
      decimal-rounding standard. In addition, TVA estimates the number of
      customers impacted by rounding to not be material. See Appendix C for
      TVA’s complete response.

      Auditor’s Response – While Oak Ridge and TVA management disagree
      with the necessity for using fractional data to accurately classify customers,
      the OIG maintains that using fractional data is appropriate based on the
      terms of the power contract, retail rate schedules, and Oak Ridge’s current
      practice of obtaining fractional meter readings. However, the OIG realizes
      reprogramming the current billing system may not be cost beneficial and
      concurs with the action planned by Oak Ridge.

10. Replace meters that do not meet accuracy standards stated in the power
    contract.

      Oak Ridge’s Response – Oak Ridge disagreed with the recommendation
      and stated Oak Ridge relied on the professional opinion of a skilled
      engineer when accepting meter testing results. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management disagreed with the
      recommendation and stated the power contract does not provide a meter
      accuracy standard. However, TVA also stated the Rules and Regulations
      section of the power contract only requires Oak Ridge to provide a billing
      adjustment after customer requested meter tests show the meter is running
      greater than 2 percent fast or slow. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG does not disagree with Oak Ridge’s
      assertion that TVA Comprehensive Services are the technical professionals
      in the area of meter accuracy. However, Section 10 of the Rules and
      Regulations Governing Electric Power Distribution state that in the case of

Audit 2009-12595                                                              Page 17
Office of the Inspector General                                               Audit Report


      customer requested meter tests, if “…the meter test shows the meter to be
      in excess of two percent (2%), slow or fast, an adjustment may be made in
      the customer’s bill for a period of not over thirty (30) days prior to the date of
      the test, and the cost of making the test shall be borne by the Distributor.”
      As stated in our report, OIG personnel noted test results indicating a meter’s
      accuracy was more than 4 percent slow, which falls outside of the 2 percent
      parameter for adjusting a customer bill if a customer had requested the
      meter test. If a meter test may result in a bill adjustment, the OIG finds it
      reasonable to recommend that such meters be replaced or repaired.
      (NOTE: In its response to recommendation 17, TVA management offers a
      new determination that meters tested in the field and found to be about
      4 percent fast or slow rate are generally equivalent to a 2 percent fast or
      slow rate for meters tested under more accurate laboratory conditions. The
      OIG would suggest that TVA communicate this new determination to all
      distributors, as we have found those distributors previously audited were not
      aware this distinction was acceptable in terms of providing customer
      credits.)

11. Obtain TVA approval of allocation of joint costs currently being used.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated Oak Ridge will work with TVA to gain approval for the cost allocations
      currently in place. The target completion date for this action is June 2012.
      See Appendix B for Oak Ridge's complete response.

      TVA Management’s Comments – TVA management agreed that the cost
      allocation study should be updated and stated field accountants will work
      with Oak Ridge to complete the study and implement any changes required.
      The target completion date for this action is May 2012. See Appendix C for
      TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

12. Obtain and maintain properly executed customer contracts for all GSA
    Part 3 and higher customers.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated a new business office manager will be responsible for ensuring
      employees are properly trained for compliance with the power contract.
      Oak Ridge also stated a document management system will be developed
      to ensure required documents can be quickly and easily accessed. The
      target completion date for this action is June 2012. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated Oak Ridge will work with customers whose

Audit 2009-12595                                                                 Page 18
Office of the Inspector General                                          Audit Report


      demand exceeds 1 MW to obtain signed contracts. The target completion
      date for this action is May 2012. See Appendix C for TVA’s complete
      response.

    Auditor’s Response – The OIG concurs with the actions planned by Oak
    Ridge and TVA.
13. Obtain appropriate approval for customer contracts on file without
    signatures.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated a new business office manager will be responsible for ensuring
      employees are properly trained for compliance with the power contract.
      Oak Ridge also stated a document management system will be developed
      to ensure required documents can be quickly and easily accessed. The
      target completion date for this action is June 2012. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated Oak Ridge will work with customers whose
      demand exceeds 1 MW to obtain signed contracts. The target completion
      date for this action is May 2012. See Appendix C for TVA’s complete
      response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

14. Obtain certification from customers under manufacturing schedules that
    they meet the requirements of the schedule.

      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated customer files are being reviewed and certification will be requested.
      Oak Ridge also stated a document management system will be developed
      to ensure required documents can be quickly and easily accessed. The
      target completion date for this action is June 2012. See Appendix B for Oak
      Ridge's complete response.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated Oak Ridge will work with customers to ensure
      the appropriate certifications are obtained from customers and retained on
      file. The target completion date for this action is May 2012. See Appendix C
      for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

15. Implement a process to ensure all customers with contracts have the
    appropriate contract demand entered into the billing system and the contract
    demand values in the system agree with the customer’s contract.


Audit 2009-12595                                                            Page 19
Office of the Inspector General                                           Audit Report


      Oak Ridge’s Response – Oak Ridge agreed with the recommendation and
      stated a technique will be developed and implemented to (1) identify and
      verify contract demand and (2) ensure contract demand is appropriately set
      in the billing system. Oak Ridge also stated a document management
      system will be developed to ensure required documents can be quickly and
      easily accessed. The target completion date for this action is June 2012.
      See Appendix B for Oak Ridge's complete response.
      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated Oak Ridge will develop a technique to identify
      and verify contract demand as part of a new document management
      system. The target completion date for this action is May 2012. See
      Appendix C for TVA’s complete response.

      Auditor’s Response – The OIG concurs with the actions planned by Oak
      Ridge and TVA.

The Group President, Strategy and External Relations, should:

16. Implement process(es) for verifying accuracy of DAR information to
    adequately identify and address reporting errors.

      TVA Management’s Comments – TVA management agreed with the
      recommendation and stated an increased and trained Distributor Analysis
      staff devoted to the process of reviewing DAR information will reduce errors.
      TVA believes the current process will prevent material errors. There is no
      target completion date as this is an ongoing effort. See Appendix C for
      TVA’s complete response.

      Auditor’s Response – The OIG concurs with the action taken by TVA.

17. Review TVA Comprehensive Services meter accuracy testing standards for
    tests performed on behalf of the distributor to ensure they comply with the
    standards stated in the power contract.

      TVA Management’s Comments – TVA management disagreed with the
      recommendation and stated the power contract does not contain a meter
      accuracy testing standard. TVA also stated that the greater than 2 percent
      fast or slow standard applied to billing adjustments was equivalent to
      4 percent fast or slow for meters tested in the field. TVA management
      stated discussions with TVA Comprehensive Services will be held to
      determine the feasibility of implementing measures under which field testing
      results could specify equivalent ranges of meter accuracies for testing in the
      field versus in the lab. The target completion date for this action is May
      2012. See Appendix C for TVA’s complete response.

      Auditor’s Response – While the power contract may not provide a specific
      meter accuracy standard for replacing meters, Section 10 of the Rules and
      Regulations Governing Electric Power Distribution states Oak Ridge may
      make billing adjustments when tests are conducted at a customer’s request
Audit 2009-12595                                                             Page 20
Office of the Inspector General                                         Audit Report


      and a meter is found to be in excess of 2 percent fast or slow. If it is TVA
      management’s determination that a field test accuracy of 4 percent is
      equivalent to a laboratory test accuracy of 2 percent, the OIG would suggest
      that TVA communicate this new determination to all distributors, as we have
      found those distributors previously audited were (1) not aware this
      distinction was acceptable in terms of providing customer credits and
      (2) using 2 percent as their criteria.




Audit 2009-12595                                                           Page 21
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Oak Ridge including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted, therefore the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. Reviewed results of the queries and, using nonstatistical
    sampling, selected accounts for further analysis and follow-up to determine
    whether misclassification, metering issues, or noncompliance with contract
    requirements occurred. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether Oak Ridge
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                     APPENDIX A
                                                                      Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, this amount
equaled $1,127,262.30, either positive or negative. Also, we considered any
errors identified as systemic or intentional as significant.

The scope of the audit was for the period July 2007 through June 2009.
Fieldwork was conducted March 2010 through August 2010 and included visiting
the distributor’s offices in Oak Ridge, Tennessee. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDIX B
Page 1 of 10
APPENDIX B
Page 2 of 10
APPENDIX B
Page 3 of 10
APPENDIX B
Page 4 of 10
APPENDIX B
Page 5 of 10
APPENDIX B
Page 6 of 10
APPENDIX B
Page 7 of 10
APPENDIX B
Page 8 of 10
APPENDIX B
Page 9 of 10
APPENDIX B
Page 10 of 10
APPENDIX C
 Page 1 of 7
APPENDIX C
 Page 2 of 7
APPENDIX C
 Page 3 of 7
APPENDIX C
 Page 4 of 7
APPENDIX C
 Page 5 of 7
APPENDIX C
 Page 6 of 7
APPENDIX C
 Page 7 of 7
